No. 20-1434

 

Bu The
Supreme Court of the United States

LESLIE RUTLEDGE, ATTORNEY GENERAL OF ARKANSAS, ET AL.,
Petitioners,
Vv.

LITTLE ROCK FAMILY PLANNING SERVICES, ET AL., Respondents.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

AMICUS BRIEF OF THE AMERICAN CENTER FOR LAW AND
JUSTICE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF SERVICE

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29,5(b), hereby certifies that one copy of the Amicus Brief of the American Center for Law
and Justice in Support of Petitioners has this day been served upon all parties required to be
served, by first-class mail, postage prepaid, mailed from Annandale, VA to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.

Nicholas Jacob Bronni Kendall Kelly Alexis Turner
Solicitor General of Arkansas O’Melveny & Myers
Arkansas Attorney General’s Office 1625 I Street, NW

323 Center St., Suite 200 Washington, DC 20006
Little Rock, AR 72201 kendallturner@omm.com
nicholas. bronni@arkansasag.gov 703-606-1934

501-682-6302

Counsel for Petitioners Counsel for Respondents
/

   
 

7 Walter M. Weber

May 11, 2021

 
